Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
Learn About
Us
Meet
OIG Senior Staff
Report
Fraud
Apply
for a Job
Visit
our Library
FAQs
Contact
Us
Fugitive
Felon Program
Links
of Interest
Site
Map
Español
OIG Home
Audit
Report - A-06-97-62003
Office
of Audit
Canada`s Experience in
Charging a User Fee for Social Insurance Number Cards - A-06-97-62003
- 5/22/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
Public
Reaction to the User Fee Has Been Favorable
The
Primary Purpose of the User Fee is to Generate Revenue
The
Costs and Workload Impact of the User Fee Are Moderate
The
Social Insurance Number Card Plays a Lesser Role in Canadian
Society
Canada
has Experienced Lower Replacement Card Rates
CONCLUSION
AND RECOMMENDATION
OTHER MATTERS
APPENDICES
A: Application Process
for Social Insurance Number Card
C: Computation of Estimated
Cost Savings
D: Major Contributors
to this Report
EXECUTIVE
SUMMARY
PURPOSE
This inspection report provides information on the
feasibility of the Social Security Administration (SSA) charging
a fee for replacement Social Security number (SSN) cards based on
our review of the Canadian Government`s experiences in charging
a user fee for replacement Social Insurance Number (SIN) cards.
BACKGROUND
The SSN and SSN card play major roles in American society.
This has generated the need for individuals to have an SSN and an
SSN card. As a result, SSA processed 16.6 million requests for SSN
cards in Fiscal Year (FY) 1996. Approximately 10.9 million (65.7
percent) of these requests were for replacement SSN cards.
Congressional concern over immigration and the desire
that the SSN card convey the stability of the Social Security program
prompted Congress to examine SSN related issues. Issues examined
include uses of the SSN and SSN card; methods to improve the SSN
card issuance process; improvements to the security of the SSN card;
and ways to reduce the cost of SSN card production. Congress passed
the "Personal Responsibility and Work Opportunity Reconciliation
Act of 1996" which requires SSA to prepare an evaluation report
on various issues including the feasibility of charging a fee for
SSN cards.
To assist SSA in responding to Congress, the Office
of the Inspector General (OIG) has undertaken this review of Canada`s
user fee for replacement SIN cards. The Canadian Government has charged
a CAN$10 user fee for replacement SIN cards since July 1, 1985. We
combined in-person and telephone interviews with written documentation
reviews to assess Canada`s experiences in charging a user fee
for replacement SIN cards. We met with various Canadian officials
familiar with:
1. the history of the SIN card,
2.                the development
of the user fee policies, and
3. the appropriate laws and regulations
that provide the authority to charge a user fee.
We also visited
a local office so that we could "walk through" the application
process for initial and replacement SIN cards.
FINDINGS
Public Reaction to the User Fee Has Been Favorable
The Government`s use of user fees is well established
in Canada. Therefore, the implementation of a user fee for replacement
SIN cards was not unusual.
The Primary Purpose of the User Fee is to Generate
Revenue
Agencies frequently have turned to user fees to generate
revenue. In a 12-month period ended March 31, 1996, Human
Resources Development Canada collected more than CAN$2.1 million
through the use of user fees for replacement SIN cards.
The Costs and Workload Impact of the User Fee
Are Moderate
The workload impact of the user fee activity on local
offices is minimal. This is because the work force is already in
place and the fee collection is a relatively small and integrated
portion of the SIN card application process.
The Social Insurance Number Card Plays a Lesser
Role in Canadian Society
Since its introduction as a means to register individuals
for Unemployment Insurance and Canada Pension Plan, official use
of the SIN and SIN card has expanded moderately. It is the Government`s
policy that the SIN not become a universal identifier.
Canada has Experienced Lower Replacement Card
Rates
Over the last 5 years, Canada`s replacement card
rate has been nearly 3 times less than the rate SSA has experienced.
Canada`s more limited uses for the card and its use of plastic
in producing the cards may have an impact.
CONCLUSION AND RECOMMENDATION
Canada`s experiences in charging a user fee for
replacement SIN cards suggest that SSA could meet with similarly
positive results. Based on SSA`s cost estimates for producing
an SSN card, we estimate SSA would charge $13.00 for replacement
SSN cards. Through a combination of revenue generation and cost avoidance
(assuming some individuals become more responsible with their cards),
SSA could recover approximately $142 million annually or $710 million
over 5 years. Therefore, we recommend that SSA charge a fee for replacement
SSN cards.
SSA COMMENTS
Since SSA is preparing a report to Congress on the
issue of charging a user fee for initial and replacement SSN cards,
the Agency stated that it is not prepared to state a position on
OIG`s recommendation at this time. SSA provided additional comments
regarding:
1. differences between the basis for and uses of SSN
and SIN cards; and
2.              issues related to direct and indirect costs,
individual responsibility, and exceptions to the user fee.
OIG RESPONSE
Although we acknowledge general differences related
to the expectations for and uses of SSN and SIN cards, we did not
make it the purpose of this inspection to catalogue these differences.
We instead focused our efforts on identifying similarities between
SSA and Human Resources Development Canada. We wanted to determine
if Canada`s experiences in charging a user fee would translate
well to SSA. We also focused on answering the questions of SSA officials.
Based on our work, we believe Canada`s experiences translate
well to SSA and that Canada has already addressed many questions
raised by SSA officials. Therefore, we continue to support our recommendation
that SSA implement a user fee for replacement SSN cards.
Back to top
INTRODUCTION
PURPOSE
This inspection report provides information on the
feasibility of the SSA charging a fee for replacement SSN cards based
on our review of the Canadian Government`s experiences in charging
a user fee for replacement SIN cards.
BACKGROUND
The SSN and SSN card have long played major roles in
American society. In 1935, the Social Security program was the only
user of the SSN and SSN card. However, in 1943 other Federal agencies
began using the SSN as an identifier for their programs. During the
1960s, the use of the SSN expanded to identification of taxpayers,
Medicare recipients, and military personnel. In the 1970s, the SSN
became a means of locating absent parents and documenting eligibility
for programs such as Aid to Families with Dependent Children.
Today the SSN is part of our everyday lives. For example:
 individuals can use the SSN card as proof
of employment eligibility in the United States when applying for
a job;
 credit bureaus use the SSN as one of several
identifiers on an individual`s credit record;
 State agencies list the SSN card as a form
of documentation that can be used when applying for a driver`s
license; and
 individuals applying for professional licenses
must supply their SSN (to assist in child support enforcement).
Concerns Regarding SSN Related Workloads
The varied uses for the SSN and SSN card have generated
the need for individuals to have an SSN and an SSN card. As a result,
SSA processed 16.6 million requests for SSN cards in FY 1996.
Approximately 10.9 million (65.7 percent) of these requests
were for replacement SSN cards.
Congressional concern over immigration and the desire
that the SSN card convey the stability of the Social Security program
prompted Congress to examine SSN related issues. OIG and the General
Accounting Office have produced reports on a variety of issues, including:
 uses of the SSN and SSN card;
 methods to improve the SSN card issuance process;
 improvements to the security of the SSN card;
and
 ways to reduce the cost of SSN card production.
In addition, Congress passed the "Personal Responsibility
and Work Opportunity Reconciliation Act of 1996." The legislation
requires: (1) SSA to develop a prototype SSN card which is counterfeit
resistant, uses new security features, and provides reliable proof
of citizenship or legal residence status; (2) the use of the SSN
in child support enforcement and in determining eligibility for the
Earned Income Tax Credit; and (3) SSA to produce an evaluation report
on the cost and workload impact of producing the counterfeit-resistant
card, methods to improve the SSN application process, and the feasibility
of charging a fee for SSN cards.
Canada`s User Fee for Replacement Social
Insurance Number Cards
To assist SSA in responding to Congress regarding the
feasibility of a user fee, OIG has undertaken this review of Canada`s
user fee for replacement SIN cards. The Canadian Government has charged
a CAN$10 user fee for replacement SIN cards since July 1, 1985. The
similarities between Canada`s programs and those of SSA suggest
that SSA can borrow from Canada`s experiences in imposing a user
fee.
To increase the value of this review, SSA officials
asked that we answer some specific questions regarding Canada`s
user fee, including, but not limited to, the following:
 How do individuals pay the user fee?
 What does Canada do to keep individuals from
evading the user fee?
 Besides revenue generation, are there other
intentions related to charging a user fee (e.g., the fee makes
individuals more responsible and less likely to lose the card)?
 Is the SIN used elsewhere in society so as
to increase the card`s usefulness to the individual?
 How is the policy regarding charging a user
fee conveyed to the public?
METHODOLOGY
We combined in-person and telephone interviews with
written documentation reviews to assess Canada`s experiences
in charging a user fee for replacement SIN cards. We visited the
headquarters for Human Resources Development Canada in Hull, Quebec
where we met with various Canadian officials familiar with: (1) the
history of the SIN card, (2) the development of the user fee policies,
and (3) the appropriate laws and regulations that provide the authority
to charge a user fee. We also visited a local office so that we could "walk
through" the application process for initial and replacement
SIN cards.
This inspection was conducted in accordance with the Quality
Standards for Inspections issued by the President`s
Council on Integrity and Efficiency.
Back to top
FINDINGS
PUBLIC
REACTION TO THE USER FEE HAS BEEN FAVORABLE
The Government`s use of user fees is well established
in Canada. According to the officials with whom we spoke, the general
public accepts user fees as a way of life. User fees that Canadians
typically pay include fees for processing passports, immigration
documents, and driver`s licenses. Therefore, the implementation
of a user fee for replacement SIN cards was not unusual.
The Human Resources Development Canada--the Agency
responsible for producing the SIN cards--conducts periodic reviews
to collect public perceptions related to its services. The reports
show that most people generally are pleased with the services they
receive. Although some individuals complained about having to pay
a user fee, especially if the loss of a card was not their fault
(e.g., theft), most either did not rate it as a concern or mentioned
that they found the fee to be nominal.
The Government Publicizes Changes Related to
the Replacement Card User Fee
The Canadian Government makes every effort to inform
the public regarding changes to policies on user fees. Fee policy
changes are published in the Canada Gazette--similar in purpose
to the Federal Register. If the change is significant, the
Government may purchase advertising space in newspapers to alert
the public of the change.
THE
PRIMARY PURPOSE OF THE USER FEE IS TO GENERATE REVENUE
The Canadian Government has reduced in size drastically
over the last few years. Officials mentioned that reductions in staffing
and budgets have exceeded 20 percent in many cases. With no
relief in sight, agencies frequently have turned to user fees to
generate revenue.
The Human Resources Development Canada imposed the
user fee to help recover the cost of producing SIN cards. In a 12-month
period ended March 31, 1996, Human Resources Development
Canada collected more than CAN$2.1 million through the use of user
fees for replacement SIN cards. (Overall, Human Resources Development
Canada produced 994,707 total SIN cards during this time period and
has approximately 31 million total SIN cards in circulation.)
Exceptions Exist to Charging a User Fee for a
Replacement Card
The law allows for specific, limited exceptions to
charging a user fee. To be granted a waiver, documentation usually
is required. The legally allowed exceptions are as follows:
a legal change in the name of the number holder;
an official error (e.g., a Government employee
incorrectly entered the individual`s name resulting in an incorrect
spelling appearing on the card); and
loss of the card due to a natural disaster.
We observed official correspondence from individuals
or their representatives requesting that the user fee be waived due
to a lack of resources needed to pay the fee. In every case that
we observed, the Government denied the request.
By Law, User Fees Cannot be Excessive
In general, user fees are not to exceed the cost of
providing a given service. The law specifically states that fees
and charges for a service ". . . provided by
or on behalf of Her Majesty in right of Canada . . . may
not exceed the cost to Her Majesty in right of Canada of providing
the service . . . ." If the fee exceeds
the cost of providing the service, it is considered a tax and is
governed under a different set of laws.
The Costs Used to Determine the User Fee Are
Audited Annually
Each year, the Internal Audit Bureau or a contractor
audits the costs associated with a user fee. The major categories
used in the SIN card audit include:
Salaries
Transportation and Communications (e.g., postage
for SIN cards)
Information (e.g., printing costs for SIN
cards)
Professional and Special Services
Rentals (e.g., renting space outside building
as required)
Repairs and Maintenance
Material and Supplies
Acquisition of Machinery and Equipment
Central Government Services (e.g., charges
for accommodation of office space)
Contribution to Employee Benefits
Indirect Costs (e.g., salary and non-salary
expenses for local and regional, finance, personnel, and administrative
support services provided to operations by the department)
The total administrative costs associated with producing
all SIN cards--both initial and replacement cards--is added and this
total is divided by the total number of SIN cards produced during
the year. The resulting dollar amount, rounded up to the nearest
whole dollar, becomes the basis for the replacement card user fee.
THE
COSTS AND WORKLOAD IMPACT OF THE USER FEE ARE MODERATE
The workload impact of the user fee activity on local
offices is minimal. This is because the work force is already in
place and the fee collection is a relatively small and integrated
portion of the SIN card application process. For additional information
regarding the SIN card production process, please refer to Appendix A.
Internal Controls Used to Track Receipt of User
Fee Are Not Overly Burdensome
When a local office receives a replacement SIN card
application, the clerk must record the receipt of the user fee. The
fee is recorded into an electronic data base, called the Automated
Receipt and Deposit System (ARADS), which generates a receipt number.
The clerk writes this number in the appropriate location on the application
form. If the clerk fails to include this information, the Social
Insurance Registry--the Agency that physically produces the cards--will
not process the application.
In order to prompt a deposit in compliance with procedures,
ARADS will tell the clerk when total receipts, since the last deposit,
exceed CAN$500. The SIN coordinator for the local office periodically
receives reports showing the number of replacement cards that the
office processed, as well as the total deposits. This procedure provides
verification that the office has made all appropriate deposits.
If an individual mails an application for a replacement
card, two clerks open the mail and record the receipt of any
funds received. This prevents anyone from taking the fees and then
claiming that the applicant failed to include the fee. According
to the officials with whom we spoke, applicants rarely claim that
they did not receive proper credit for a mailed user fee.
Costs Associated with Collecting the User Fee
Are Included in the Fee
The method used to determine the user fee includes
costs associated with receiving, recording, and depositing the user
fee; therefore, the costs of receiving the fee are included in the
fee itself. The Canadian Government does not bear additional costs
as a result of charging a user fee.
THE
SOCIAL INSURANCE NUMBER CARD PLAYS A LESSER ROLE IN CANADIAN
SOCIETY
When the Social Insurance Registration Program began
in 1964, it introduced the SIN as a vehicle to register individuals
for two Federal Government programs: Unemployment Insurance and the
Canada Pension Plan. Since this time, its official use has expanded
moderately. The programs authorized to use the SIN are all Federal
programs, including, but not limited to, Revenue Canada-Taxation,
Old Age Security, Family Allowances, Child Tax Credit, and Citizenship
and Immigration Canada.
It is the Government`s policy that the SIN not become
a universal identifier. Although the Government cannot specifically
prohibit an organization from using the number, it strongly discourages
such activity. The Government itself goes to extremes to ensure that
it does not use the SIN improperly. The officials with whom we spoke
mentioned that they have employee identification numbers that are
different from their SINs.
CANADA
HAS EXPERIENCED LOWER REPLACEMENT CARD RATES
Over the last 5 years, Canada`s replacement card
rate has been nearly 3 times less than the rate SSA has experienced.
Canada`s replacement rate has remained around 20 percent over
the last several years. In contrast, SSA`s replacement rate has
exceeded 56 percent for FY 1992 through FY 1996. The following factors
may help account for this difference.
Fewer Uses. As described above,
the SIN card has fewer uses than the SSN card. Some of the officials
with whom we spoke mentioned that they had lost their cards years
ago, but not suffered as a result. As long as they could provide
their SINs when needed, the cards were unnecessary.
Older Applicants. Canadian law
requires individuals to have a SIN when they begin participating
in insurable employment. As a result, many individuals do not apply
for SINs until they begin working as teenagers.
Plastic Cards. Canada`s
cards are made of plastic as opposed to paper. Although some individuals
have criticized the material for being too brittle (believing this
to be a reason why they should not have to pay a user fee), at
a minimum the plastic is more durable than the paper SSN cards.
Back to top
CONCLUSION
AND RECOMMENDATION
Canada`s experiences in charging a user fee for
replacement SIN cards suggest that SSA could meet with similarly
positive results. Canada`s procedures suggest that a successful
program can be both simple and straightforward, and incur little
direct cost to SSA.
In FY 1996, SSA estimated the administrative cost of
issuing an initial or replacement SSN card at $12.51. If SSA adopted
Canada`s policy of rounding up to the nearest whole dollar, the
proposed fee for replacement SSN cards would be $13.00. Through a
combination of revenue generation and cost avoidance (assuming some
individuals become more responsible with their cards), SSA could
recover approximately $142 million annually or $710 million over
5 years. Therefore, we recommend that SSA charge a fee for replacement
SSN cards.
SSA COMMENTS
Since SSA is preparing a report to Congress on the
issue of charging a user fee for initial and replacement SSN cards,
the Agency stated that it is not prepared to state a position on
OIG`s recommendation at this time. SSA provided additional comments,
including statements regarding the adequacy of our reporting on the
differences between the basis for the SSN and the SIN and the uses
of the cards. The comments also raised issues regarding: (1) direct
and indirect costs associated with charging a user fee, (2) individuals
becoming more responsible with their cards if faced with paying a
user fee, and (3) exceptions to the user fee and the impact on revenue
generation. For a complete copy of SSA`s comments, please see
Appendix B.
OIG RESPONSE
Although we acknowledge general differences related
to the expectations for and uses of SSN and SIN cards, we did not
make it the purpose of this inspection to catalogue these differences.
We instead focused our efforts on identifying similarities between
SSA and Human Resources Development Canada. We wanted to determine
if Canada`s experiences in charging a user fee would translate
well to SSA. We also focused on answering the questions of SSA officials.
Based on our work, we believe Canada`s experiences translate
well to SSA and that Canada has already addressed many questions
raised by SSA officials. Therefore, we continue to support our recommendation
that SSA implement a user fee for replacement SSN cards.
The additional issues that SSA expressed address the
fee itself (e.g., amount of fee, total revenue generation). Our responses
are as follows:
We acknowledge in the report that the fee
most likely would rise based on the direct costs of collecting
the user fee. We believe it is appropriate that the individual
requesting the replacement card should bear the cost of collecting
the fee. It was outside the scope of this inspection to do a cost-benefit
analysis to determine if indirect costs would exceed revenue generated.
Our report states that Canadian officials
did not consider potential changes in behavior when deciding to
implement a user fee. Therefore, we did not find any information
that would support conclusions regarding the user fee`s behavioral
impact. Our inclusion of a statement in the recommendation about
individuals becoming more responsible for their SSN cards--which
would lead to cost avoidance--was to show contrast with SSA`s
current policy which offers little or no incentive to be responsible.
We believe it is proper for SSA to set the
policy related to which individuals, if any, are exempted from
the user fee. We do acknowledge that exemptions would impact revenue
generation. It is important to note, however, that Canadian officials
continue to debate the merits of having any individuals exempted
from the user fee.
OTHER MATTERS
This report focused on experiences of the Canadian
Government in implementing a user fee for issuing replacement SIN
cards. It is important to note that misuse of SSN cards in the United
States represents a serious fraud problem. Duplicate SSN cards may
be sold to individuals who use them to establish fraudulent identity
and obtain Government benefits and services. Charging fees for replacement
cards offers SSA an opportunity to deter this type of fraud by creating
a financial disincentive to those individuals who make multiple requests
for cards. In addition, SSA could establish a documentation trail
for identifying individuals who might be involved in such fraud schemes
if the Agency required that payments for cards be made by personal
check.
Back to top
APPENDICES
APPENDIX A
APPLICATION PROCESS FOR SOCIAL INSURANCE NUMBER
CARD
An individual can use one of two methods to apply for
a SIN card. The first is to visit a local office (called a Canada
Employment Center or CEC). There, the clerk will assist the applicant
in ensuring that he or she: (1) completed the application in a complete
and legible manner, (2) presented acceptable proof-of-identity documents,
and (3) paid the user fee, if necessary. (Approximately 85 percent
of all applicants use this method.) These applications are forwarded
to the Social Insurance Registry (SIR) on a daily basis. The SIR
is responsible for processing the applications and producing the
cards. The second method is for the applicant to send the application,
proof-of-identity documents, and fee, if necessary, directly to the
SIR.
The SIR uses various steps to efficiently process the
applications. The mailroom receives all applications, those from
the CECs and those from applicants. Here, minor processing takes
place and the applications are batched for processing. The operators
take the batched applications and process them at computerized workstations.
They search the SIR data base to verify the statements on the applications.
If the individual provides a SIN, this is entered into the system.
If the individual does not provide a SIN--the individual is claiming
that this is an application for an initial SIN--a name search is
used. If the search results are acceptable and all requirements are
met, the case is processed and a SIN card issued. If the search results
are not acceptable or not all the requirements are met, the operator
rejects the application and returns it either to the CEC or directly
to the applicant. Any fees received are held until the application
is returned to SIR for resumption of processing.
Four times daily, the card production operators request
the system to produce a card production file based on all processed
applications. The operators run the file through the card production
system that produces both the SIN card and the mailing pieces.
Assuming no backlog, this automated process allows
SIR to produce cards the same day applications are received in the
mailroom. Overall, the in-house processing time has been reduced
from 3 weeks to an average of less than1 day to 5 days (depending
on backlogs).
APPENDIX C
COMPUTATION OF ESTIMATED COST SAVINGS
This report uses Canada`s model for determining
SSA`s cost recovery for charging a replacement card user fee.
In the Accountability Report for Fiscal Year 1996, SSA determined
the unit cost for producing an SSN card to be $12.51. This would
produce a user fee of $13.00 ($12.51 rounded to the nearest whole
dollar). In its response to our report, SSA said that it produced
10.9 million replacement cards in FY 1996. Therefore, a $13.00 user
fee x 10.9 million replacement cards results in $141.7 million in
cost savings.
APPENDIX D
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
William Fernandez, Director, Program Audits (West)
Brian Pattison, Deputy Director
Sterlin McGruder, Senior Auditor
James McLendon, Auditor
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified